No. 21-57

 

 

IN THE

Supreme Court of the Anited States

LEVI FRASIER, .
Petitioner,
Vv.
CHRISTOPHER L. EVANS, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I, Brian R. Frazelle, do hereby declare that on August 16, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceedings as follows:

Jeffrey L. Fisher Wendy J. Shea

Stanford Law School Supreme Court Denver City Attorney’s Office
Litigation Clinic 201 W. Colfax Avenue

559 Nathan Abbott Way Department 1108

Stanford, CA 94305-8610 Denver, CO 80202-5332
jfisher@law.stanford.edu wendy.shea@denvergov.org

(650) 724-7081 (720) 913-3112

Counsel of Record for Petitioner Counsel of Record for Respondents
Levi Frasier Christopher Evans, et al.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 16, 2021.

——
Vmin~ Fron he
Brian R. Frazelle
Counsel for Amicus Curiae
